      Department of Homeland Security





            FEMA’s Use of Risk-based Monitoring
                    for Grantee Oversight




OIG-13-40                                    February 2013

                       OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov


                                     FEB 14 2013

MEMORANDUM FOR:              David J. Kaufman
                             Acting Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

                             Cara Whitehead
                             Acting Director
                             Division of Financial Assistance Policy and Oversight
                             Department of Homeland Security

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     FEMA’sfUsefoffRisk-basedfMonitoringfforfGranteefOversightff

Attached for your action is our final report,fFEMA’sfUsefoffRisk-basedfMonitoringfforf
GranteefOversight.ffWe incorporated the formal comments from the Federal Emergency
Management Agency’s Office of Policy, Program Analysis and International Affairs in the
final report. Those formal comments included input from the Department of Homeland
Security’s Division of Financial Assistance Policy and Oversight.

The report contains three recommendations aimed at improving financial and
programmatic monitoring of grantees. Your offices concurred with two of the three
recommendations and did not concur with one recommendation. As prescribed by the
Department of Homeland Security Directive 077-01, Follow-Up and Resolution for Office
of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
corrective action plan, and target completion date for recommendation 1. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is
received and evaluated, recommendation 1 will be considered open and unresolved.

Based on information provided in your response to the draft report, we consider
recommendations 2 and 3 resolved and closed.
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
                                                  
   Consistent with our responsibility under the Inspector General Act, we are providing 
   copies of our report to appropriate congressional committees with oversight and 
   appropriation responsibility over the Department of Homeland Security.  We will post 
   the report on our website for public dissemination. 
    
   Please call me with any questions, or your staff may contact John E. McCoy II, Deputy 
   Assistant Inspector General for Audits, at (202) 254‐4100. 
    
   Attachment 
    
    
                                  




www.oig.dhs.gov                               2                                      OIG-13-40
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Review ............................................................................................................... 3


              FY 2012 Financial and Programmatic Monitoring ................................................. 4 

              Planned Grants Monitoring for FY 2013 ................................................................ 5

              Coordination with DHS’ FAPO ................................................................................ 7 

              Recommendations ................................................................................................. 8 

              Management Comments and OIG Analysis ........................................................... 8 


   Appendixes
              Appendix A: Objectives, Scope, and Methodology ........................................... 12
              Appendix B: Management Comments to the Draft Report .............................. 13
              Appendix C: AFGP and TISB Detailed Grant Program Information ................... 16
              Appendix D: FY 2012 Programmatic and Financial Monitoring
                          Key Risk Indicators ........................................................................ 17 

              Appendix E: Major Contributors to This Report ................................................ 18 

              Appendix F: Report Distribution ........................................................................ 19 


   Abbreviations
              AFGP                  Assistance to Firefighters Grant Program
              AFG                   Assistance to Firefighters Grants
              DHS                   Department of Homeland Security
              FAPO                  Division of Financial Assistance Policy and Oversight
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              GPD                   Grant Programs Directorate
              OIG                   Office of Inspector General
              TISB                  Transportation Infrastructure Security Branch




www.oig.dhs.gov                                                                                                                OIG-13-40
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Executive Summary
   This review was initiated in response to recommendations in the Department of
   Homeland Security (DHS) Office of Inspector General (OIG) report, DHSfFinancialf
   AssistanceftofthefAssociationfoffCommunityfOrganizationsfforfReformfNowf(ACORN)fandf
   ItsfAffiliatesf(OIG-11-10). In that audit, we determined that the Federal Emergency
   Management Agency (FEMA) did not consider sufficient risk indicators in selecting
   grants to monitor, and we recommended that FEMA incorporate key indicators in its
   risk-based approach to its selection process.

   This review focused on FEMA preparedness grants awarded directly to local fire
   stations, port facilities, and transit systems, called Assistance to Firefighters Grants and
   Transportation Infrastructure Security Branch grants, that totaled $1.2 billion in fiscal
   year 2011. This report conveys concerns we identified during our limited review for
   FEMA to consider prior to implementing its revised monitoring plans. We may revisit
   FEMA’s monitoring of grantees using a risk-based approach once implementation is
   complete.

   In fiscal year 2012, FEMA inconsistently applied risk indicators to determine the level of
   financial and programmatic monitoring a grantee received. Additionally, in selecting
   grantees to monitor, FEMA did not assign risk indicators to all grantees. As a result,
   during fiscal year 2012, FEMA could not ensure that it monitored all grantees with
   increased risk. For fiscal year 2013, FEMA combined programmatic and financial
   monitoring into an integrated plan and revised its risk indicators to better reflect
   grantees’ inherent risk. However, the plan does not ensure that all grantees with
   increased risk will be properly selected for financial monitoring. In addition, FEMA and
   DHS have not coordinated their approaches to grant oversight monitoring, which means
   that FEMA may have to revise its approach should DHS issue a standard risk model.

   We made three recommendations aimed at improving FEMA’s identification and
   application of risk-based indicators to grantee oversight. FEMA concurred with two of
   the recommendations and did not concur with our recommendation to include in
   FEMA’s integrated financial and programmatic monitoring plan for grantees a
   methodology for applying financial monitoring key risk indicators to all grantees, not
   just those selected in a random sample.




www.oig.dhs.gov                                   1                                         OIG-13-40
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Background
   This review was initiated in response to recommendations in the DHS OIG report, DHSf
   FinancialfAssistanceftofthefAssociationfoffCommunityfOrganizationsfforfReformfNowf
   (ACORN)fandfItsfAffiliatesf(OIG-11-10). In that report, we determined that FEMA’s
   process for selecting grants to monitor did not consider sufficient indicators of risk. We
   recommended that FEMA “incorporate key factors or indicators, such as the grantees’
   experience with the program and known concerns about the grantee, in [its] risk-based
   approach to select grantees for inclusion in its monitoring plan.”1

   FEMA awards preparedness (nondisaster) grants to plan, organize, equip, train, and
   conduct exercises to build and sustain the capabilities necessary to prevent, protect
   against, mitigate the effects of, respond to, and recover from those threats that pose
   the greatest risk to the security of the Nation. Most preparedness grants are awarded
   to State Administrative Agencies, which in turn award grant funds to subgrantees;
   according to a FEMA official, States also monitor these grants. FEMA also awards grants
   directly to local entities such as fire stations, port facilities, and transit systems. These
   grants are grouped under two broad categories—Assistance to Firefighters Grants
   Program (AFGP) and Transportation Infrastructure Security Branch (TISB) grants. A
   FEMA official reported that FEMA directly monitors both categories of grants, which
   totaled $1.2 billion in fiscal year (FY) 2011. These grants were the subject of our review.
   Appendix C contains detailed program information. Table 1 summarizes the FY 2011
   AFGP and TISB preparedness grants.

                    Table 1. FY 2011 AFGP and TISB Grants
                     Grant Program       Number of Awards       Total Funds Awarded
                     AFGP                     3,575                $768,033,052
                     TISB                       251                $435,129,048
                    Source: DHS OIG prepared table based on FEMA data.

   FEMA grants are overseen by its Grant Programs Directorate (GPD). Programmatic and
   financial grant monitoring responsibilities are shared among GPD and FEMA’s 10
   regions. The goals of programmatic and financial monitoring are to ensure that funded
   projects remain consistent with their original proposals, that Federal grant funds are
   spent according to Federal regulations, and that grantees are properly administering
   these funds. Although GPD oversight includes issuing grant monitoring plans, it does
   not have authority over monitoring conducted by the 10 regions. Table 2 shows the
   FY 2012 and FY 2013 financial and programmatic monitoring responsibilities for all AFGP
   and TISB grants. Appendix C contains more details.

   1
     DHSfFinancialfAssistanceftofthefAssociationfoffCommunityfOrganizationsfforfReformfNowf(ACORN)fandf
   ItsfAffiliates, OIG-11-10, November 2010, page 11.

www.oig.dhs.gov                                      2                                            OIG-13-40
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Table 2. Monitoring Responsibilities for AFGP and TISB Grant Programs 

                                                             Financial       Programmatic
                         Type of Grant                      Monitoring        Monitoring
                                                           Responsibility    Responsibility
    Assistance to Firefighters Grants (AFG)                FEMA GPD         FEMA Regions
      Fire Prevention and Safety                           FEMA GPD         FEMA GPD
      Staffing for Adequate Fire and Emergency Response    FEMA GPD         FEMA GPD
      Station Construction Grants                          FEMA GPD         FEMA GPD
    TISB (all grants)                                      FEMA Regions     FEMA GPD
     Source: DHS OIG prepared table based on FEMA data.

   GPD develops annual monitoring plans, which include a standard monitoring approach
   for GPD and the regions. FEMA’s approach to its monitoring plans is evolving. For
   example, FEMA officials said that programmatic monitoring was conducted prior to
   FY 2012; however, FEMA did not regularly publish a plan until FY 2012. FEMA regularly
   published annual financial monitoring plans, but these plans differed each year in the
   method used to select grantees for monitoring. For example, in FY 2010, FEMA used
   subjective selection criteria such as “Responsiveness of Grantee;” the FY 2011 plan used
   more objective criteria such as “Grants that have exceeded the 5-year statutory
   threshold.” The FY 2012 financial monitoring plan reverted to including more subjective
   criteria.

   FEMA personnel monitor grants through formal monitoring activities such as desk
   reviews and site visits. Desk reviews are paper-based reviews of grantee activity that
   FEMA personnel conduct at FEMA offices; site visits involve onsite verification of
   grantee activities. Some FEMA personnel said that they also informally monitor
   throughout the grant life cycle—for example, during new grantee orientation, while
   reviewing quarterly reports, or when providing technical assistance to the grantee.

   Results of Review
   In FY 2012, FEMA inconsistently applied risk indicators to determine the level of
   financial and programmatic monitoring a grantee received. Additionally, in selecting
   grantees to monitor, FEMA did not assign risk indicators to all grantees. As a result,
   FEMA could not ensure that it monitored all grantees with increased risk. For FY 2013,
   FEMA combined programmatic and financial monitoring into an integrated plan and
   revised its risk indicators to reflect grantees’ inherent risk better. However, the plan
   does not ensure that all grantees with increased risk will be selected for financial
   monitoring. In addition, FEMA and DHS’ Division of Financial Assistance Policy and
   Oversight (FAPO) have not coordinated their approaches to grant oversight monitoring,

www.oig.dhs.gov                                    3                                     OIG-13-40
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   which means that FEMA may have to revise its approach should DHS issue a standard
   risk model.

           FY 2012 Financial and Programmatic Monitoring

           FEMA’s FY 2012 financial and programmatic monitoring plans did not ensure that
           it could properly monitor all grantees with increased risk. Although FEMA used
           risk indicators to determine the type of formal monitoring that a grantee should
           receive, the agency’s plans did not specify using risk indicators to select grantees
           that would be subject to such monitoring. Instead, FEMA relied on legislative
           mandates, random sampling, and subjective judgment to select grantees for
           monitoring.

           In FY 2012, FEMA published separate monitoring plans for formal financial and
           programmatic monitoring. Both plans included the same procedures for
           selecting grants to monitor:

           1.	 Select grants that are legislatively mandated for monitoring (e.g., grants
               required to be monitored every 2 years by the Implementingf
               Recommendationsfoffthef9/11fCommissionfActfoff2007, as amendedf(9/11
               Act)).
           2.	 Select grants designated by FEMA leadership as special monitoring focus areas.
           3.	 Use a process to select grants from the remaining pool.

           The selection process for the remaining pool of grants varied by grant program
           and type of monitoring. For example, the FiscalfYearf2012fProgrammaticf
           MonitoringfPlan suggests that, for TISB grants, FEMA personnel should monitor
           all grants but prioritize high-dollar value grants. According to the plan, Grant
           Management Specialists also have discretionary authority to determine which
           grantees are monitored, and they may add or omit grantees from the random
           sample.2 Some FEMA personnel said that such discretionary selection of
           grantees with known problems largely factored into deciding which grants FEMA
           programmatically monitored in a given year.

           Rather than applying risk indicators to all grants to determine which ones it will
           monitor financially, FEMA selected a sample of grants to monitor before applying
           risk indicators. In its FiscalfYearf2012fFinancialfMonitoringfPlan, FEMA encouraged
           using random sampling to select grants to include in its financial monitoring

   2
    Grant Management Specialists prepare and administer grants and cooperative agreements, ensure 

   compliance with the terms and conditions of the grant award, and make recommendations to resolve 

   grantee problems. 


www.oig.dhs.gov                                      4                                      	     OIG-13-40
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


              schedules. According to the plan, the sample should include 10 percent of all
              nondisaster (preparedness) grants, that is, those not already under mandatory or
              focus area financial monitoring. In addition, using professional judgment,
              regional personnel may omit grants from the sample under certain conditions,
              for example if a Government Accountability Office or DHS OIG audit is ongoing or
              was conducted within the past 3 years. By selecting grants to monitor before
              applying risk indicators, FEMA may be losing opportunities to identify and
              monitor high-risk grantees.

              FEMA’s programmatic and financial monitoring plans also included risk indicators
              that FEMA personnel should use to determine the type of grantee monitoring.
              These indicators, which are listed in appendix D, are similar for both financial and
              programmatic plans and are all given equal weight. When a grantee is selected
              for monitoring, FEMA personnel rate the grantee on each of these indicators and
              average the score to determine overall risk for the grant, which determines
              whether a grantee receives a site visit, a desk review, or no formal monitoring.
              However, according to the monitoring plans, FEMA personnel do not have to
              apply these risk indicators to every grant.

              Planned Grants Monitoring for FY 2013

              FEMA issued an FY 2013 comprehensive and integrated risk-based monitoring
              plan to enhance its financial and programmatic grant monitoring process.
              However, FEMA needs to ensure that all grantees with increased risk will be
              properly selected for financial monitoring and will be monitored appropriately.
              The integrated process may result in coordination issues, including data residing
              in multiple databases.

              FY 2013 Grant Monitoring Selection Process

              FEMA’s FY 2013 monitoring plan does not include steps to ensure that all grantees
              with increased risk are financially monitored. Financial monitoring of AFGP
              grants will be based on a 3 percent random sample of open nonmandatory (non-
              9/11 Act) grants. The FY 2013 plan lists the reason as “…the large number of
              grants within the Headquarters Branches portfolio and the estimated financial
              monitoring workload capacity.”3 Further, the FY 2013 plan permits Grant
              Management Specialists to assess this sample of nonmandatory (non-9/11 Act)
              grants, with the type of monitoring activity left to the specialist’s discretion. The
              specialists are encouraged to select medium- and high-rated grants for
              monitoring, and must justify and document the selection. Additionally, those

   3
       FiscalfYearf2013fFEMAfMonitoringfPlan, October 1, 2012, page 13, footnote 10.

www.oig.dhs.gov                                         5                                    OIG-13-40
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           who monitor grants in the regions are not required to follow the processes listed
           in the FY 2013 monitoring plan.

           In contrast to financial monitoring, all open programmatic grants will receive a
           First Line Review in FY 2013. A score sheet will be completed on each grant to
           assist those monitoring the grant in determining additional monitoring activities.
           The score sheets will be totaled by the Preparedness Grants Division’s Program
           Development Branch and then prioritized from highest risk to lowest risk. The
           Preparedness Grants Division’s Division Director will review the list, provide final
           approval, and allocate monitoring resources.

           Although FEMA created a comprehensive and integrated monitoring plan for
           FY 2013, it does not assign financial risk indicators appropriately to all grantees
           and does not require regional monitors to abide by the monitoring plan processes.

           FY 2013 Integrated Monitoring Plan

           The FY 2013 comprehensive and integrated risk-based plan includes TISB, AFGP,
           and other preparedness grants. This approach may create challenges because of
           the characteristics of the TISB and AFGP programs. Table 3 compares the TISB
           and AFGP programs with other preparedness grants.

           Table 3. Comparison of TISB and AFGP Programs With Other Preparedness
           Grants
                                     TISB and AFGP                  Other preparedness grants
                           Individual businesses, fire
            Awarded to                                           State Administrative Agencies
                           departments, transit agencies, etc.
            Number of      Approximately 3,800 total TISB        Up to 58 grantees (one for each
            Awards         and AFGP awards for FY 2011           State and territory)
            Award Basis    Competitive                           Formulas or threat assessments
           Source: DHS OIG prepared table based on FEMA data.

           FEMA’s integrated FY 2013 monitoring plan describes a process for
           programmatic monitoring that includes the development of a prioritization list
           from programmatic score sheets completed on each open grant. According to
           FEMA’s FY 2013 plan, FEMA will conduct a pilot program in FY 2013 that will use
           various weighting methodologies to develop a prioritization protocol suited to
           individual grants programs.




www.oig.dhs.gov                                    6                                         OIG-13-40
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Coordination of Proposed Monitoring Activities

           The FY 2013 plan provides specific procedural coordination points to promote
           integration of financial and programmatic grant monitoring activities. FEMA
           believes that an integrated monitoring plan will increase communication and
           coordination between those involved in programmatic and financial monitoring
           and improve the grant monitoring process. We are concerned that coordination
           issues will continue under the integrated monitoring plan, including maintaining
           grant information in multiple databases (Assistance to Firefighters Grants (AFG)
           Online System, Non-Disaster Grant Management System, and the Grants
           Management System) instead of one database.

           Some Regional FEMA Fire Program Specialists indicated that they conduct
           programmatic monitoring of AFGP grants and must access different databases to
           review grant purchase requests.4 However, they are not notified when a grantee
           submits a purchase request to FEMA headquarters for payment. Failure to notify
           the specialist about purchase request submissions increases the risk of improper
           procurements. To improve communication and minimize the need to resolve
           grant procurement issues, FEMA should ensure that its Regional Fire Program
           Specialists are notified when grant purchase requests are submitted for payment.

           Coordination With DHS’ FAPO

           DHS’ FAPO and FEMA’s GPD did not communicate regularly to ensure
           consistency and cooperation in monitoring grantees with increased risk. The
           DHS Chief Financial Officer has authority over the financial accountability and
           internal control of DHS funds, including financial assistance awards. FAPO is
           responsible for coordinating with other DHS headquarters offices as necessary to
           implement DHS’ policies regarding financial assistance.

           According to a FAPO official, there are plans to issue a FinancialfAssistancefLinef
           offBusiness directive and instruction, which will include a mandate to use a
           standardized DHS risk model for grants. However, GPD and FAPO personnel
           acknowledged that there was little to no communication between the offices
           regarding current FEMA monitoring plans or long-range changes to these plans.
           Without collaboration between FAPO and GPD while developing monitoring
           plans, FEMA may issue new plans that are inconsistent with the DHS risk model
           and need to be revised.


   4
    Fire Program Specialists provide grant monitoring oversight and assist in developing, coordinating, and
   evaluating program plans, policies, and operational procedures.

www.oig.dhs.gov                                        7                                              OIG-13-40
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Assistant Administrator of the Grant Programs
           Directorate:

           Recommendation #1:

           Include in FEMA’s integrated financial and programmatic monitoring plan for
           grantees a methodology for applying financial monitoring key risk indicators to
           all grantees, not just those selected in a random sample.

           Recommendation #2:

           Notify Regional Fire Program Specialists when grantee purchase requests are
           submitted to FEMA for payment.

           We recommend that the Acting Director, Division of Financial Assistance Policy
           and Oversight, and the Assistant Administrator of the Grant Programs Directorate:

           Recommendation #3:

           Develop and implement a plan to ensure that there is open and continuing
           communication between the offices as they develop grant monitoring
           procedures, plans, and requirements.

           Management Comments and OIG Analysis

           FEMA and DHS FAPO provided comments on the draft of this report. A copy of
           the response in its entirety is included in appendix B.

           Management Comments to Recommendation #1

           Nonconcur. FEMA replied that its financial monitoring process is conducted at
           the grant level and not the grantee level, and that there are more than 20,000
           open grant awards and limited resources available to assess each award.
           Therefore, FEMA has chosen to assess a sample of grants using 11 key indicators,
           which can further identify any potential issues or concerns that require an
           enhanced level of monitoring.

           FEMA said that it conducts quarterly cash analysis activities on all open grants as
           a means of providing financial oversight and monitoring. If the analysis warrants
           a more in-depth review, FEMA conducts site visits or desk reviews on the
www.oig.dhs.gov                                 8                                        OIG-13-40
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           affected awards. Additionally, all grants required to be monitored by the 9/11
           Act are scheduled for monitoring not less than once every 2 years. Each region
           and headquarters branch receives a data set of these grants to assess; the
           regional data set includes all grants in the annual rotation of States and
           territories as required by the 9/11 Act. GPD also sends headquarters branches a
           data set chosen through random sampling, to include AFG, Station Construction
           Grants, Fire Prevention and Safety, and Staffing for Adequate Fire Emergency
           Response grants. These grants account for a large portion of the 20,000 grants
           that GPD processes each year. Many of these are 1-year reimbursement-only
           grants and are assessed before payment is made. FEMA does not believe that it
           is necessary to assess all of these grants for key risk indicators.

           FEMA also said that the Preparedness Grants Division reviews all headquarters-
           based preparedness grants to guide the selection of grants for programmatic
           monitoring. Therefore, FEMA believes that it is not cost-effective for some grant
           programs for which monitoring is already required by the 9/11 Act or for the
           large volume of AFG, Station Construction Grants, Fire Prevention and Safety,
           and Staffing for Adequate Fire Emergency Response grants to be assessed for
           key risk indicators. FEMA requests that OIG consider this recommendation
           resolved and closed.

           OIG Analysis

           We do not consider FEMA’s response to be responsive to the recommendation.
           At the exit conference held on October 10, 2012, FEMA officials said that they
           were programmatically applying risk to all new AFGP grants in FY 2013 and that
           all open grants (non-AFGP) will be assessed for risk. Therefore, it is unclear to
           OIG why the same protocols, from a financial perspective, cannot be applied for
           financial risk to the same grant population. It is OIG’s intent, with this
           recommendation, that all new FY 2013 grants be assessed for risk upon award.
           OIG understands the resource constraints of assessing all open grants prior to
           FY 2013. We consider this recommendation open and unresolved until FEMA
           provides evidence that its quarterly cash analysis activities provide adequate
           financial risk-based monitoring in lieu of assessing risk at grant award.

           Management Comments to Recommendation #2

           Concur. FEMA replied that the AFG grants are closely managed through the
           Subject Matter Specialists within the headquarters office. The Regional Fire
           Program Specialists provide support for the technical assistance and some
           monitoring aspects of AFG awards. To that end, the AFG program office has
           expanded access to AFG grant information to the Regional Fire Program
www.oig.dhs.gov                                9                                       OIG-13-40
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Specialists to ensure that they can view payment requests by grantees. Given
           the actions already taken, FEMA requests that OIG consider this
           recommendation resolved and closed.

           OIG Analysis

           We consider the actions taken by FEMA to be responsive to the
           recommendation. The recommendation is considered resolved and closed.

           Management Comments to Recommendation #3

           Concur. DHS and FEMA agree that staff communication between DHS’ FAPO and
           FEMA’s GPD can be strengthened and have taken actions to institutionalize
           processes requiring such communication.

           According to FEMA, during FY 2012, FEMA GPD led numerous intra-agency Grant
           Program Task Force meetings designed to facilitate the exchange of ideas and
           information to ensure consistent, efficient, and effective financial assistance
           processes across FEMA. This effort resulted in the joint development of a
           comprehensive and integrated risk-based FYf2013fFEMAfMonitoringfPlan, which
           GPD formally approved on September 27, 2012. Task force participants
           contributing to the effort included financial and program management staff from
           throughout FEMA.

           FEMA also said that with open and continuing communication, task force
           participants coordinated the development of a preparedness monitoring plan,
           including new standard processes to better ensure cost-effectiveness and reduce
           the burden that grant recipients sometimes encounter with multiple oversight-
           related site visits and desk reviews. The participants also jointly determined
           which grants had the greatest need for monitoring by developing and using a
           new recipient assessment framework. FAPO reviewed the resulting plan and
           confirmed its alignment with Department-wide monitoring protocols and
           approaches being established as a result of the DHS Deputy Secretary’s initiative
           to ImprovefthefHealthfoffDHSfFinancialfAssistance.

           As indicated in FEMA’s response, concurrent with FEMA’s effort to develop its
           FY 2013 monitoring plan, FAPO led regularly scheduled monthly Financial
           Assistance Initiative Requirements Work Group meetings to standardize all
           phases of the financial assistance life cycle—preaward, award, postaward, and
           closeout. These meetings incorporated representation from a broad cross-
           section of all financial assistance awarding entities, including FEMA GPD. As
           such, GPD staff were fully aware of the protocols and templates being developed
www.oig.dhs.gov                               10                                      OIG-13-40
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           for each phase of the life cycle and considered them, as appropriate, when
           developing the FY 2013 monitoring plan.

           FEMA’s response further said that as a result of the Deputy Secretary’s initiative,
           DHS Directive 128-01, FinancialfAssistancefLinefoffBusinessfIntegrationfandf
           Management, and DHS Instruction 128-01-001, FinancialfAssistancefLinefoff
           BusinessfIntegrationfandfManagementfInstruction, were approved and signed by
           the DHS Under Secretary for Management and the DHS Chief Financial Officer on
           October 15, 2012, and October 23, 2012, respectively. This guidance directs the
           creation of two councils that, once formed, will institutionalize opportunities for
           open and continuing communication between those involved in developing
           grant-monitoring procedures, plans, and requirements.

           Given the actions already taken, DHS and FEMA jointly request that OIG consider
           this recommendation resolved and closed.

           OIG Analysis

           We consider the actions taken by DHS and FEMA to be responsive to the
           recommendation. The recommendation is considered resolved and closed.




www.oig.dhs.gov                                11                                       OIG-13-40
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our limited review to determine whether FEMA’s
   grant monitoring plans, including its methodology for identifying and selecting grantees
   for review and the indicators used in the selection process, are adequate to monitor
   grantees with increased risk. During our review, FEMA officials said that revised
   monitoring plans were not in place; as a result, we suspended the review. Subsequent
   to completion of fieldwork and prior to issuance of the draft report, FEMA issued its
   FY 2013 integrated risk-based monitoring plan. We are providing the concerns identified
   during our limited review for FEMA to consider before implementing its revised
   monitoring plans. We may revisit FEMA’s monitoring of grantees using a risk-based
   approach once implementation is complete.

   Because FEMA’s GPD intended to revise its risk-based monitoring plans for FY 2013, we
   did not test its FY 2012 monitoring plans. We reviewed the AFGP and TISB grant
   programs (appendix C provides detailed program information). We analyzed FEMA’s
   published programmatic (FY 2012) and financial (FYs 2008–2012) monitoring plans, the
   FY 2013 integrated risk-based monitoring plan, and DHS’ grant oversight guidance in its
   FinancialfManagementfPolicyfManual. We interviewed FAPO personnel, GPD personnel
   who oversee financial and programmatic monitoring, GPD financial monitoring personnel,
   and Region 8 and Region 1 AFGP programmatic and TISB monitoring personnel.

   We conducted this review between May and October 2012 under the authority of the
   InspectorfGeneralfActfoff1978, as amended, and according to the QualityfStandardsfforf
   InspectionfandfEvaluation issued by the Council of the Inspectors General on Integrity
   and Efficiency.




www.oig.dhs.gov                               12                                      OIG-13-40
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report


                                                                                 U.S.   1)~II>trIl".nl of 1I(l ",d~nd See m'il)
                                                                                                   Washington. DC 20472




                                                                                  8 .., .... ~ ,~(J>
                                                                                                         FEMA
                                                       JAN 1 7 1D13

                  MEMORANDUM FOR:               Anne L Richards
                                                Assistant Inspector Genera l for Aud its
                                                Officc of Inspector General

                  FROM:                         David J. Kau fman ~
                                                Assoc iate Admimstrator lor
                                                Policy. Program Analysis and International Affairs

                  SUBJECT:                       Response 10 OIG Draft Report: FEMA's Use ojRisk-bCJsed MonilOring
                                                for Granree Over:;iglll (Job Code 12-057-AUD-FEMA)


                  Thank you for the opportunity to comment on the draft report. The fi ndings in the report will be used
                  to strengthen the effectiveness and efficiency of how we execute and measure our programs. We
                  recogn ize the need to continue to improve the process, including addressing the recommendations
                  raised in this report, Our responses 10 the recommendations are as follows:

                  O IG Recommcmlution #1: We ret.:Olllmclld that the Assistant Administrator o f the Grant Programs
                  Dire.:torale inclllde in FEMA's integrated fi nancial and programmatic monitOl'ing plan for grantees a
                  methodology for applying financial monitoring key risk indicators to all grantees, not just those
                  sclccted in a random sample.

                  FEMA Response: Non-concur. Given that the financial monitoring process is conducted at the
                  grant level rather than at the grantee level coupled with the fact that there are over 20,000 opcn grant
                  awards and limited resources availab le to assess each award, FEMA has chosen to assess a sample of
                  grams ut ilizing t 1 key indicators which can further identi fy any potential isslles or concerns which
                  require an enhanced level or monit ori llg.

                  fEMA does conduct quarterly eash analysis activities on all opcn grants as a means of providing
                  financial ovc rsight and monitoring. If our cash analysis activities warrant a more in-dcpth rcvicw.
                  r'EMA conducts site visits or desk revicws all the affected awards. In addition, all grants covered by
                  the 9/ 11 Act are scheduled for monitoring not less than once every two years. Each Region and
                  Headquarters Branch receives a data set of lhese grants to assess. The Regional data SC I includes all
                  grant s inl he annual rotation ofstatcs ami tcrrituries. Granl Programs Di rectnrate (GPO) also sends
                  the Headquarters Branches a data set chosen tluough random sampling to include Assistance to
                  Fircfightcr Grants (AFG), Station Construction Grunts (S CG). Fire Prevcntion & Safcty (FP&S). and
                  Staffing for Adequate Fire Emergency Response (SAFER) grants. These grant programs account for
                  a large portion of the 20,000 grants whic h GPD processes each year. Many of these arc one-year
                  reimbursement-only grants and are assessed prior 10 payment being made. FEMA does not believe it
                  is nCl:t:ssary to assess all of these grants for key risk indicators.




www.oig.dhs.gov                                                  13                                                               OIG-13-40
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              In addition, the Preparedness Grants Division reviews all headquarters-based preparedness grants to
              guide the selection of grants for programmatic monitoring.

              Therefore, FEMA believes it is not cost-effective for some grant programs for which monitoring is
              already required by the 9/11 Act or for the large volume of AFG, SeG, FP&S, and SAFER grants to
              be assessed for key risk indicators_ FEMA requests that OIG consider this recommendation resolved
              and closed.

              OIG Recommendation #2: We recommend that the Assistant Administrator of the Grant Programs
              Directorate notify Regional Fire Program Specialists when grantee purchase requests are submitted
              to FEMA for payment

              FEMA Response: Concur. The Assistance to Firefighter Grants are cLosely managed through
              Subject Matter Specialists within the headquarters office. The Regional Fire Program Specialists
              provide support for the technical assistance and some monitoring aspects of AFG awards. To that
              end the AFG program office has expanded access to AFG grant information to the regional Fire
              Program Specialist (FPS) to ensure that they have the ability to view payment requests by grantees.
              Given the actions already taken, FEMA requests that OIG consider this reconunendation resolved
              and closed.

              Recommendation #3: Develop and implement a plan to ensure there is open and continuing
              conununication between the offices as they develop grant monitoring procedures, plans, and
              requirements.

              FEMA Response: Concur. DHS and FEMA agree that staff communication betvveen DHS's Office
              of the Chief Financial Officer Financial Assistance Policy and Oversight (F APO) and FEMA's
              Grant Programs Directorate (GPD) can be strengthened and have taken actions to institutionalize
              processes requiring such communication.

              During FY 2012, FEMA GPD led numerous intra-agency Grant Program Task Force meetings
              designed to facilitate the exchange of ideas and infonnation to ensure consistent, efficient, and
              effective financial assistance processes across FE:MA. This effort resulted in the joint development
              of a comprehensive and integrated risk-based FY 2013 FEMA Monitoring Plan, which the GPD
              fonnaJly approved on September 27. 2012. Task force participants contributing to the effort
              included fmancial and program management staff from throughout FEMA.

              With open and continuing communication, Task Force participants coordinated development of a
              preparedness monitoring plan, including new standard processes to better ensure cost effectiveness
              and reduce the burden grant recipients sometimes encoWlter with multiple oversight·related site-
              visits and desk-reviews. The participants of the Task Force also jointly detennined which grants had
              the greatest need for monitoring by developing and using a new recipient assessment framework.
              FAPO reviewed the resulting plan and confirmed its alignment with Department-wide monitoring
              protocols and approaches being established as a result of the DHS Deputy Secretary's initiative to
              Improve the Health ofDHS Financial Assistance.

              Concurrent with FEMA's effort to develop its FY 2013 monitoring plan, F..AJ>O led regularly
              scheduled monthly Financial Assistance Initiative Requirements Work Group meetings to




www.oig.dhs.gov                                             14                                                       OIG-13-40
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              standardize all phases of the financial assistance lifecycle _.._. pre-award, award, post-award, and
              closeout. These meetings incorporated representation from a broad cross-section of all financial
              assistance awarding entities, including FEMA GPD. As such, GPD staff were fully aware of the
              protocols and templates being developed for each phase of the lifccyc1e and considered them. as
              appropriate, when developing the FY 2013 monitoring plan.

              As a result of this Deputy Secretary's initiative, DHS Directive 128~Ol, Financial Assistance Line of
              Business Integration and Management, and DRS Instruction 128-01-001, Financial Assistance Line
              oj Business Integration and Management insJruction, were approved and signed by the DHS
              Undersecretary for Management and the DHS Chief Financial Officer on October 15, 2012. and
              October 23. 2012. respectively (copies of these documents have been provided to OIG under
              separate cover). This guidance directs the creation of two Councils which, once formed. will
              institutionalize opJXlrtunities for open and continuing communication between those involved in
              developing grant-monitoring procedures, plans. and requirements.

              Given the actions already taken, DHS and FEMA jointly request that 01G consider this
              recommendation resolved and closed.

              Thank you for the work that you and your team did to better inform us throughout this audit. We
              look forward to the final report. Please direct any questions regarding this response to Gary
              McKeon, FEMA's Chief Audit Liaison, at 202-646-1308




www.oig.dhs.gov                                              15                                                       OIG-13-40
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix C
   AFGP and TISB Detailed Grant Program Information

   Assistance to Firefighter Grant Programs

   Purpose: To protect the health and safety of the public and firefighting personnel
   against fire and fire-related hazards, and to provide assistance for fire prevention
   programs.

   Grant Programs:

   •	 Assistance to Firefighters Grants – equipment, training, wellness and fitness,
      personnel protective gear, and vehicles
   •	 Fire Prevention and Safety – fire prevention education, smoke alarm installation,
      arson prevention, code enforcement, and firefighter safety research and development
   •	 Staffing for Adequate Emergency Response – hiring and retaining firefighters, and
      recruiting and retaining volunteers
   •	 Station Construction Grants – renovation or construction of fire stations

   Transportation Infrastructure Security Branch Grant Programs

   Purpose: To enhance the security of the Nation’s critical infrastructure, including
   metropolitan passenger rail and transit systems; ports; and intercity bus, freight rail, and
   passenger ferry systems.

   Grant Programs:

   •	   Freight Rail Security Grant Program
   •	   Intercity Bus Security Grant Program
   •	   Intercity Passenger Rail Security (Amtrak)
   •	   Port Security Grant Program
   •	   Transit Security Grant Program
   •	   Trucking Security Grant Program

   Source: FEMA.




www.oig.dhs.gov                                 16                                 	      OIG-13-40
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix D
   FY 2012 Programmatic and Financial Monitoring Key Risk
   Indicators

   Programmatic Monitoring Key Risk Indicators
    Indicator                     Guidance
    Cost and Total Support        Recipients with high-cost projects or awards
    Complexity                    Project with multiple objectives
    Prior Indication of           Available audit or evaluation findings, recipient requests
    Problems                      for assistance, or data on the financial stability of the
                                  organization
    Experience of Recipient       New or unstable organization, one receiving Federal grants
                                  for the first time, or one with inexperienced key personnel
    Time Since Previous Visit     Grants must be monitored biannually, but need not be
                                  monitored each time by means of a site visit
    Agency Priority               Predetermined leadership or agency priorities

   Financial Monitoring Key Risk Indicators 

    Indicator                     Guidance
    Grant Dollar Value            Grant value that represents higher materiality relative to
                                  the region’s or Award Administration Branch’s portfolio or
                                  grant program from which it is drawn
    Grantee Responsiveness        Timeliness of grantee responses to FEMA requests for
                                  information
    Administrator’s Priority      Grant program identified by FEMA leadership as a priority
    New FEMA Grantee or           Grantees without experience managing FEMA grant
    Grantee With New              programs or with turnover in key positions
    Personnel
    Number of Grants              High volume of grants that may affect grantee
    Managed                       effectiveness
    Prior Financial Monitoring    Grantees or grants previously identified through cash
    Findings                      analysis or site visit as requiring additional financial
                                  monitoring
    Program Type                  Grant programs that inherently carry a higher risk relative
                                  to the region’s or Award Administration Branch’s portfolios

   Source: FEMA. 





www.oig.dhs.gov                               17                                      OIG-13-40
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Michael Siviy, Director
   Lorinda Couch, Program Analyst
   Thomas Bobrowski, Program Analyst
   Tristan Weir, Program Analyst
   Kelly Herberger, Communications Analyst
   Jeanne Garcia, Independent Referencer




www.oig.dhs.gov                              18                 OIG-13-40
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  19                        OIG-13-40
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
